  U.S. DEPARTMENT OF COMMERCE
            Office of Inspector General



                   PUBLIC
                  RELEASE


  NATIONAL TELECOMMUNICATIONS
AND INFORMATION ADMINISTRATION

          Public Telecommunications Facilities
             Program Award Process Promotes
                       Merit-Based Decisions,
            But Process Needs More Discipline
                            CFDA No. 11.550


             Audit Report No. ATL-10945-9-0001 / March 1999




                      Office of Audits, Atlanta Regional Office
U. S. Department of Commerce                                                                     Audit Report ATL-10945-9-0001
Office of Inspector General                                                                                        March 1999


                                                TABLE OF CONTENTS

                                                                                                                                  Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          I.     PTFP Used Merit-Based Evaluation Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          II.    PTFP Solicitation Process Obtained a Nationwide Response . . . . . . . . . . . . . . . . . 6

          III. Program Staff Overrode Independent Reviewers’ Evaluations                                   ...............7

                 A.           Review panels rated applications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                 B.           PTFP staff adjusted scores . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                 C.           PTFP director ranked applications for selection . . . . . . . . . . . . . . . . . . . 11

          IV. PTFP Selection Decisions that Deviated from Program Director’s
              Recommendations Were Not Adequately Documented . . . . . . . . . . . . . . . . . . . . 12

          V.     Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

          VI. NTIA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

         VII. OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

         VIII. Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

APPENDIX I -             NTIA Fiscal Year 1997 Procedures for Solicitation, Review, and
                         Selection of Awards

APPENDIX II -            NTIA’s Response to Draft Audit Report
U. S. Department of Commerce                                            Audit Report ATL-10945-9-0001
Office of Inspector General                                                               March 1999


                                   EXECUTIVE SUMMARY

The Office of Inspector General has conducted an audit of the fiscal year 1997 procedures and
practices for soliciting, reviewing, and selecting applications for financial assistance under the
National Telecommunications and Information Administration’s Public Telecommunications
Facilities Program (PTFP), classified as No. 11.550 in the Catalog of Federal Domestic
Assistance. The audit was conducted as part of a Department-wide review of Commerce’s
discretionary financial assistance programs initiated at the request of the Chairman of the Senate
Commerce, Science, and Transportation Committee.

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine the recipients and funding levels of awards. These
programs involve a significant portion of the Commerce Department’s budget and operations,
approximately $1 billion annually.

Through PTFP, the National Telecommunications and Information Administration (NTIA)
provides financial assistance to public or noncommercial educational broadcast stations;
noncommercial telecommunications entities; systems of public telecommunications entities;
private nonprofit organizations organized primarily for educational or cultural purposes or that
plan for the provision of public telecommunications services; state, local or Indian tribal
governments; and other government agencies and subdivisions. Assistance is provided for
planning, acquiring, installing, and modernizing public telecommunications facilities. In fiscal year
1997, the program received 221 applications for more than $50.5 million. Of these,
215 were accepted for review, and 97 grants totaling more than $14.1 million were awarded. All
97 awards were made competitively in response to a solicitation.

We examined NTIA’s criteria, procedures and practices for soliciting, reviewing, and selecting
PTFP awards and found that they generally complied with statutory, departmental and NTIA
requirements and appeared designed to result in merit-based awards. Nonetheless, we identified
opportunities for improving the program’s award procedures and practices. Specifically, our
audit disclosed that NTIA:

l      Developed and published merit-based technical and public policy criteria which were
       consistent with the objectives of the program to evaluate applications for financial
       assistance (see page 6).

l      Complied with the Department’s and NTIA’s requirement that a notice be placed in the
       Federal Register, at least annually, announcing the availability of funds and soliciting
       award applications, and specifying the criteria and the process to be used in reviewing and
       selecting applications for funding. The requirements were sufficient to obtain a
       nationwide response from eligible applicants (see page 6).


                                                  i
U. S. Department of Commerce                                          Audit Report ATL-10945-9-0001
Office of Inspector General                                                             March 1999


l      Did not follow established Department’s and NTIA’s requirements intended to provide an
       independent and qualified competitive review of each application. For the fiscal year
       1997, the program staff routinely deviated from these requirements by adjusting either the
       independent reviewers’ scores or the panel’s composite evaluation scores without
       consulting those reviewers. Program officials stated that, for fiscal year 1998, the
       independent reviewers’ scores would stand with no adjustments by the program staff (see
       page 7).

l      Followed established Department and NTIA requirements for selecting applications for
       funding under PTFP. However, during fiscal year 1997, the Assistant Secretary for
       Communications and Information, as the selection official, added three applications to the
       PTFP program director’s list of applications recommended for funding. An internal
       memorandum explained that the Assistant Secretary decided to fund the additional
       applications to improve geographic distribution of the awards, but the file memorandum
       did not explain the reasons for the selections as compared with eligible applicants from
       other states. NTIA officials need to enhance the written documentation for award
       decisions that deviate from recommendations made by the program director
       (see page 12).

NTIA concurred with our findings and recommendations. NTIA stated that it has already
implemented the recommendations, starting with the fiscal year 1998 grant competition. NTIA
also requested editorial changes based on the 1998 process improvements it implemented. We
have summarized NTIA’s response on page 14. We have included a copy of the response,
excluding attachments, as Appendix II.

We commend NTIA for implementation of the draft report’s recommendations. We did not
modify the final report based on the fiscal year 1998 changes by the agency because this report
covers the fiscal year 1997 awards process. We made other editorial changes we considered
appropriate.

We recommend that the Assistant Secretary for Communications and Information:

l      Direct PTFP staff to ensure that independent reviewers’ scores are not adjusted by
       program staff during the review process.

l      Require adequate written documentation for the basis for making awards that deviate from
       the program director’s recommendations.

Our recommendations appear on page 15.




                                                ii
U. S. Department of Commerce                                              Audit Report ATL-10945-9-0001
Office of Inspector General                                                                 March 1999


                                         INTRODUCTION

The National Telecommunications and Information Administration administers the Public
Telecommunications Facilities Program (PTFP), described in the Catalog of Federal Domestic
Assistance (CFDA) as No. 11.550, which was established under the Communications Act of
1934, as amended. This discretionary funding program provides financial assistance in the form
of matching grants to public or noncommercial educational broadcast stations; noncommercial
telecommunications entities; a system of public telecommunications entities; private nonprofit
organizations organized primarily for educational or cultural purposes or that plan for the
provision of public telecommunications services; state, local or Indian tribal governments; and
other government agencies and subdivisions. Assistance is provided for planning, acquiring,
installing, and modernizing public telecommunications facilities.

PTFP’s goals are (1) to extend the delivery of public telecommunications facilities services to as
many citizens of the U.S. as possible by the most efficient and economical means, including the
use of broadcast and non-broadcast technologies; (2) to increase public telecommunications
services and facilities available to, operated by, and owned by minorities and women; and (3) to
strengthen the capability of existing public television and radio stations to provide public
telecommunications services to the public.

The Communications Act of 1934, as amended, authorizes the Department of Commerce to
establish rules and regulations relating to the criteria that will be used in determining the order in
which applications will be selected for funding and the amount of that funding. In accordance
with the Act, NTIA established rules governing the award of PTFP matching grants. The rules
governing the fiscal year 1997 awards were published in the Federal Register, Part IV, Volume
61, Number 218, dated November 8, 1996. In fiscal year 1997, NTIA officials received more
than 220 applications, of which 215 were accepted for review, and awarded 97 grants totaling
more than $14.1 million.

Competition is generally recognized as the most effective method of ensuring that financial
assistance awards are made on the basis of merit. One of the primary purposes of the Federal
Grant and Cooperative Agreement Act (31 U.S.C. §6301) is to encourage competition in the
award of federal financial assistance to the maximum extent practicable.

The Office of Management and Budget (OMB) has issued guidelines on administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by OMB to examine competition in financial assistance programs,
determined that financial assistance award processes, to ensure effective competition, should
include three basic elements. These elements, which were discussed in OMB’s June 1980 report,
Managing Federal Assistance in the 1980's, and are still applicable, include:

l       Widespread solicitation of eligible applicants and disclosure of essential application and
        program information in written solicitations;
U. S. Department of Commerce                                             Audit Report ATL-10945-9-0001
Office of Inspector General                                                                March 1999


l      Independent application reviews that consistently apply written program evaluation
       criteria; and

l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following circulars which set forth the policies and procedures to be
followed in administering federal financial assistance programs:

l      OMB Circular A-89, Federal Domestic Program Information, implements the mandate of
       the Federal Program Information Act, requiring agencies to systematically and periodically
       collect and distribute current information to the public on all federal domestic assistance
       programs, which is accomplished through the semiannual publication of the Catalog of
       Federal Domestic Assistance.

l      OMB Circular A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity
       to comment on funding priorities. Finally, A-102 requires all grant awards over $25,000
       to be reviewed for consistency with agency priorities by a policy level official.

l      OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
       with Institutions of Higher Educations, Hospitals, and Other Non-Profit Organizations,
       requires agencies to provide the public with advance notice of their intended funding
       priorities for discretionary assistance programs unless such priorities are established by
       federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements the Federal
       Managers Financial Integrity Act (P.L. 97-255) requiring agencies to establish written
       procedures for all programs and administrative activities, including financial assistance
       programs, that provide reasonable assurance that activities are effectively and efficiently
       managed to achieve agency goals.

Commerce has relied upon these guidelines and circulars in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO) 203-
26, Department of Commerce Grants Administration, requires that (1) all Commerce financial
assistance awards be made on the basis of competitive reviews unless a special waiver is obtained,
(2) competitive review processes meet minimum standards outlined in the DAO, and (3) all
Commerce agencies publish, at least annually, a notice in the Federal Register announcing the
availability of funding, soliciting award applications, and specifying the criteria and the process to
be used in reviewing and selecting applications for funding.


                                                  2
U. S. Department of Commerce                                                                                                                           Audit Report ATL-10945-9-0001
Office of Inspector General                                                                                                                                              March 1999


The chart presented below depicts the process and controls for the solicitation, review, and
selection of financial assistance awards as set forth in DAO 203-26. The processes we reviewed
during our audit are color coded for this chart and the NTIA process chart located in Appendix I.


                                           Department of Commerce Financial Assistance Awards Process
  Congress




                                    LEGISLATIVE AUTHORITY &
                                    APPROPRIATIONS REQUIREMENTS




                                                                                                                                 PREAWARD SCREENING
  Department




                                                                                                                                 * Office of General Counsel Review        FINANCIAL
                                    POLICIES &
                                                                                                                                                                           ASSISTANCE
                                    PROCEDURES                                                                                   * Office of Inspector General Review      REVIEW BOARD
                                                                                                                                   -- Limited Background Check
                                                                                                                                   -- Credit Review
                                                                                                                                   -- Outstanding Audit Issues




                                                       SOLICITATION
                                                                              REVIEW
  Bureau/Program




                                                                                                      SELECTION                               PREAWARD SCREENING
                                     POLICIES &        Public announcement
                                     PROCEDURES        and notification of    * Independent Review                                            * Outstanding Accounts
                                                                                                      *   Quantitative Scores                                              SIGNED BY GRANT
                                                       financial assistance      Panel(s)             *   Public Policy Considerations          Receivable                 OFFICER
                                                       opportunities (e.g.,   * Evaluation Criteria   *   Recommend Action                    * Suspensions & Debarments   OR DESIGNATED
                                                       Federal Register,      * Numeric Ranking       *   Decision Fully Justified and        * Award Prepared Properly    OFFICIAL
                                                       Commerce Business                                  Documented
                                                       Daily, Internet Web
                                                       Sites)
  Financial Assistance Applicants




                                                                                                                                                                              AWARD
                                                       PROPOSAL




                                                                                                          3
U. S. Department of Commerce                                            Audit Report ATL-10945-9-0001
Office of Inspector General                                                               March 1999


                                    PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman of the Senate Commerce,
Science, and Transportation Committee. The Chairman requested that the Inspectors General of
the Departments of Commerce and Transportation and the National Science Foundation review
the discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each IG
review and report on the criteria developed, either statutorily or administratively, to guide agency
officials in making discretionary spending decisions, and on the extent to which the criteria are
appropriately applied.

We are conducting our Department-wide review in two phases: a survey phase (completed) and
an individual program audit phase (ongoing). During the survey phase, we identified and
examined the body of laws, regulations, and other guidance applicable to the administration of
federal financial assistance programs. We also examined the authorizing legislation, provided by
Department officials, for each Commerce financial assistance program and classified each program
as either a “full discretion” program or a “limited discretion” program, based on the extent to
which the legislation limits the agency’s authority to independently determine the recipients and
funding levels of the awards made under the program. Finally, we examined fiscal year 1997
appropriation legislation to identify all legislatively mandated awards. No legislatively mandated
awards were found.

During the second phase of our review, we are conducting individual audits of the award
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including NTIA’s PTFP. We are evaluating the adequacy of each program’s
established award procedures and criteria for evaluating individual applications. For those
programs with procedures deemed to be adequate, we are ascertaining whether they were
followed in making awards in fiscal year 1997. For those programs with procedures considered
to be inadequate or lacking, we are reviewing how the fiscal year 1997 award decisions were
made. Finally, we are examining the legislatively mandated projects identified for each program
and determining their significance and impact on fiscal year 1997 award decisions. We plan to
issue individual reports, with any appropriate recommendations, on each program, followed by a
capping report summarizing the results of the individual audits and providing recommendations
for the Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
results of the preliminary, survey phase of the OIG’s review, and discussed some of the
preliminary observations from the individual program audits.


                                                 4
U. S. Department of Commerce                                          Audit Report ATL-10945-9-0001
Office of Inspector General                                                             March 1999


This performance audit focused on funding decisions made during fiscal year 1997 under the
PTFP. Specifically, we:

l      Reviewed the authorizing legislation, provided by Department officials, and information
       summarized in the CFDA to identify criteria for funding decisions.

l      Reviewed policies and procedures for soliciting and reviewing proposals and selecting
       applications for funding (see Appendix I for flowchart of process). We also reviewed
       NTIA’s Internal Operating Procedures, dated April 2, 1997, as they applied to the
       solicitation, review, and selection process and assessed whether they were in accordance
       with 15 CFR 2301 and DAO 203-26, Department of Commerce Grants Administration
       and Office of Federal Assistance Financial Assistance Notice No. 17, Department of
       Commerce Guidelines for the Preparation of Federal Register Notices Announcing the
       Availability of Financial Assistance Funds -- Requests for Applications.

l      Compared NTIA’s procedures with its grant award practices for fiscal year 1997 to
       determine if the process contained adequate internal controls to provide for competitive,
       merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       departmental and NTIA policies and procedures were followed.

l      Interviewed NTIA program officials and personnel from the Department’s Office of
       Executive Assistance Management (OEAM) concerning NTIA’s solicitation, review, and
       selection procedures.

l      Examined fiscal year 1997 appropriation legislation to identify legislatively mandated
       projects for this program. None were found.

We did not rely upon computer-based data supplied by NTIA and OEAM as a basis for our
findings and recommendations. We therefore conducted neither tests of the reliability of the data,
nor the controls over the computer-based system that produced the data.

In February 1999, we issued a draft report to NTIA for review and comment. A copy of NTIA’s
response, excluding attachments, is included as Appendix II and is summarized on page 14 of this
report.

We performed the audit fieldwork at NTIA and OEAM in Washington, D.C., during April and
May 1998. We conducted the audit in accordance with generally accepted government auditing
standards, and under authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.


                                                5
U. S. Department of Commerce                                           Audit Report ATL-10945-9-0001
Office of Inspector General                                                              March 1999


                           FINDINGS AND RECOMMENDATIONS

We found that NTIA’s criteria, procedures and practices for soliciting and reviewing and selection
PTFP award recipients generally complied with statutory, departmental and NTIA requirements
and appeared designed to result in merit-based awards. In fact, NTIA’s efforts to solicit
applications for PTFP awards for fiscal year 1997 exceeded the Department’s and its own
minimum requirements and generated a strong, nationwide response from multiple eligible
applicants. Each application received an independent, qualified review based on the written
evaluation criteria stated in the application notice. However, we found that the program staff
routinely deviated from established procedures by adjusting either the independent reviewers’
scores or the composite evaluation scores without consulting with the reviewers. Program
officials stated that, beginning with the fiscal year 1998 award process, adjustments to
independent reviewers scores would be prohibited. Finally, we found that 3 of the 97 award
selection decisions deviated from the PTFP program director’s recommendations and that written
justifications for such deviations generally were inadequate.

I.     PTFP Used Merit-Based Evaluation Criteria

PTFP officials implemented technical and public policy criteria that were consistent with the
objectives of the program and complied with statutory provisions for making awards. The
applicable criteria were published in the Federal Register. Based on our review, we concluded
that the criteria, which are discussed in the following sections, were adequate and resulted in a
competitive merit-based process for fiscal year 1997.

II.    PTFP Solicitation Process Obtained a Nationwide Response

NTIA’s PTFP solicitation procedures and practices for fiscal year 1997 were sufficient to obtain a
nationwide response from eligible applicants. NTIA’s widespread solicitation of eligible
applicants exceeded the Department’s and its own minimum requirements, and was successful in
generating a large number of applications responsive to PTFP program objectives.

DAO 203-26, Section 4.02, lists the solicitation procedures to be used for competitive grant
programs. These procedures are designed to ensure widespread public notification to the
interested public. Section 4.02 provides the following solicitation criteria, in part:

l      Annual Public Notice. To inform the interested public, each organization unit shall publish
       at least annually a notice in the Federal Register that includes basic information for each
       discretionary grant program.

l      Other Solicitations of Applications. Additional notice(s) in the Federal Register or other
       publications soliciting applications or preapplications must include information published
       in the annual public notice.



                                                 6
U. S. Department of Commerce                                         Audit Report ATL-10945-9-0001
Office of Inspector General                                                            March 1999


l      Minimum Notice. In order to provide the public reasonable notice, there must be a
       minimum of 30 days between the date of publication and the closing date for receipt of
       applications.

NTIA’s Internal Operating Procedures require the agency to solicit PTFP applications through
an announcement in the Federal Register. The procedures also require NTIA to distribute, to
prospective applicants, detailed information regarding the program’s application procedures.
OEAM ensures that all required information is included in the notice before NTIA officials submit
the announcement for publication in the Federal Register.

Although NTIA is only required to publish the program announcement in the Federal Register,
program officials expanded their solicitation efforts to include other media. NTIA placed the
solicitation notice on the NTIA Internet web site and sent solicitation notices to over
3,000 potential applicants on its mailing list.

Employing these solicitation methods, NTIA received 221 applications for more than
$50.5 million. PTFP program staff accepted 215, or 97 percent, of the applications as complete
and eligible for review. Acceptance was based on the completeness of the application and an
assessment of the applicant and its financial qualifications (see page 9).

III.   Program Staff Overrode Independent Reviewers’ Evaluations

PTFP’s established procedures for reviewing applications for awards were sufficient to provide an
independent and qualified competitive review for each application. Review panels used merit-
based, technical and public policy criteria which were consistent with the objectives of the
program in evaluating the applications. However, NTIA’s program staff participated in review
panels and routinely adjusted the independent reviewers’ scores or composite evaluation scores
without consulting with the reviewers. The program staff stated that the adjustments were made
to correct applications misjudged and/or unfairly scored by the external reviewers. The program
staff’s unilateral adjustment of evaluation scores has the potential of undermining the
independence and objectivity of the review process.

DAO 203-26, Section 4.02h.1, sets forth the minimum requirements for the competitive review
process:

l      Applications are reviewed only when submitted in response to a notice in the Federal
       Register or other publication.

l      Applications should be treated fairly.

l      Applications should receive an independent, objective review by one or more review
       panels qualified to evaluate the applications.



                                                7
U. S. Department of Commerce                                           Audit Report ATL-10945-9-0001
Office of Inspector General                                                              March 1999


l      Review panels consist of at least three persons and may include one or more individuals
       who are not employees of the federal government.

l      Review panels should use selection criteria covered by the application notice.

l      Organization units should prepare a rank ordering of applications based solely on
       evaluations by the review panel.

l      Organization units should determine the order in which the applications will be selected
       for funding based on:

       (1)     any priorities or other program requirements published in the Federal Register that
               apply to the selection of applicants for new awards, and

       (2)     the rank order of applications established by the review panel on the basis of the
               selection criteria.

A.     Review panels rated applications

PTFP review procedures require that each applicant receive an independent, objective review by
one or more review panels qualified to evaluate the applications submitted under the program.
There should be at least three persons on each review panel, which may include one or more
persons who are not employees of the federal government. The review process includes an
outside review, a technical assessment by an NTIA engineer, and an evaluation by a program staff
member. This combination of reviewers constitutes a review panel.

OMB encourages the use of knowledgeable reviewers from outside a program office or agency as
a means of providing an independent perspective and evaluation of applicants. For the
14 review panels established by NTIA in fiscal year 1997, NTIA used 24 independent outside
reviewers from across the nation. The outside reviewers held professional positions in the radio
and television broadcast industries. The 24 reviewers were placed in 14 groups, each with
1 to 3 reviewers, with 1 group assigned to each of the 14 review panels. For groups with two or
more outside reviewers, the reviewers’ individual scores and comments were combined into one
score. This score represented the group’s contribution to the review panel and was combined
with the scores of the NTIA engineer and a PTFP program staff member to arrive at a composite
evaluation score for each of the applications. The evaluations of the outside reviewer(s), the
engineer, and the program staff member were given equal weight in calculating the composite
evaluation score. We found that the review panels applied the merit-based criteria to assess the
applicants and properly documented their reviews of each application.




                                                 8
U. S. Department of Commerce                                             Audit Report ATL-10945-9-0001
Office of Inspector General                                                                March 1999


PTFP review panels used merit-based technical and public policy criteria that were consistent with
the objectives of the program and published in the Federal Register to evaluate the applications.
PTFP Final Rules were set out in 15 CFR Part 2301 and published in the Federal Register, Part
IV, Volume 61, Number 218, dated November 8, 1996.

Part 2301.17 (b) lists the “Evaluation Criteria for Construction and Planning Applications,” lists
six criteria to be used in evaluating applications.

(1)    Applicant Qualifications. Applicant has or will have the ability to complete the project
       and provide services of professional quality.

(2)    Financial Qualifications. Applicant can provide nonfederal funds required for the project
       and can ensure long-term financial support for continued operations.

(3)    Project Objectives. Proposed project fulfills among other things the objectives and
       specific requirements of one or more of the categories set forth in §2301.4 “Types of
       Projects and Broadcast Priorities.”

(4)    Urgency. Proposed project is justified for funding during the current grant cycle, or when
       appropriate, the condition of existing equipment justifies its prompt replacement.

(5)    (i) Technical Qualifications (construction applicants only). Eligible equipment requested
       is necessary to achieve the objectives of the project, meets industry standards, and costs
       proposed reflect the most efficient use of federal funds.

       (ii) Planning Qualifications (planning applicants only). Proposed planning process and
       timetable for achieving the expected results is feasible and costs proposed reflect the most
       efficient use of Federal funds.

(6)    Special Considerations. Applicant should demonstrate that its broadcast or non-
       broadcast application will achieve significant diversity in the ownership of, operation of,
       and participation in public telecommunications facilities.

Applications that meet the first two criteria (applicant and financial qualifications; items
1 and 2, respectively) are accepted for further review. The applications are then evaluated using
the remaining criteria. The urgency of the project and the extent to which it fulfills the objectives
and specific requirements of the project (items 3 and 4, respectively) are given the most weight in
evaluating applications.

Part 2301.18(a), “Selection Factors,” lists six selection factors that the Director of Public
Broadcasting Division, as the PTFP program director, is to consider in recommending
applications for funding to the Office of Telecommunications and Information Applications
(OTIA) Associate Administrator for approval and subsequently to the Assistant Secretary for

                                                  9
U. S. Department of Commerce                                             Audit Report ATL-10945-9-0001
Office of Inspector General                                                                March 1999


Communications and Information for selection. They are:

(1) The program staff evaluations, including those of outside reviewers.

(2) The type of projects and broadcast priorities set forth in Part 2301.4.

(3) Whether the application is for a broadcast or a nonbroadcast project.

(4) Whether the applicant has any current NTIA grants.

(5) The geographic distribution of the proposed grant awards.

(6) The availability of funds.

As set forth in Part 2301.18(c) the final award selection will be made by the Assistant Secretary
upon consideration of the director’s recommendations and the purposes set forth in Part 2301.1
(a) and (c). The program purposes are:

“(a) extend delivery of public telecommunications services to as many citizens in the United States
as possible by the most efficient and economical means,

(b) increase public telecommunications services and facilities available to, operated by, and owned
by minorities and women; and

(c) strengthen the capability of existing public television and radio stations to provide public
telecommunications services to the public.”

During fiscal year 1997, NTIA program staff prepared composite scores for 215 applications
based on reviews by the 14 panels. If an applicant received a score of from 81 to 100, the
application was recommended for funding; if the score ranged from 55 to 80, the application was
recommended for funding if funds were available; and if the score ranged from 0 to 54, the
application was not recommended for funding. On the basis of the composite scores,
74 applications were recommended for funding; 90 additional applications were recommended if
funds were available; and 51 applications were not recommended for funding (see Table 1 on
page 12).

B.     PTFP staff adjusted scores

In addition to the composite evaluation score, the program staff member prepared a summary
evaluation of each application the panel reviewed. To prepare the summary evaluation, the
program staff member examined and analyzed the scores awarded by each reviewer for each
evaluation criterion to determine if any divergence occurred and to assess the arguments made in
support of the score given to a particular criterion by the reviewer. As a result of this analysis,

                                                  10
U. S. Department of Commerce                                          Audit Report ATL-10945-9-0001
Office of Inspector General                                                             March 1999


program staff adjusted either the score given by the independent reviewer(s) or the review panel’s
composite score, without consulting with the panel, for 191 of the 215 applications, or almost 90
percent of the applications reviewed by the panels. The program staff adjusted 153 applications
to a higher score and 38 applications to a lower score.

In an internal memorandum dated August 6, 1997, program officials stated that the adjustment of
the scores led to the selection of applications for funding that were in the best interest of the
federal government. Program staff prepared reconciliation comments to explain the adjusted
scores. The comments predominately stated that the applications had been misjudged and/or
unfairly scored by the outside reviewers.

After the program staff’s adjustments of the review panel scores, 106 applications were
recommended for funding; 60 applications were recommended for funding if funds were available,
and 49 applications were not recommended for funding (see Table 1 on page 12). Of the
74 applications initially recommended for funding by the review panels, 73 were among the
106 applications recommended for funding by the program staff. One was placed in the “if funds
are available” category based on its score having been adjusted from 82 to 78.

15 CFR Part 2301.16(e) requires summary evaluations that will incorporate the outside reviewers’
recommendations, engineering assessments and program staff evaluations. However, the program
staff’s unilateral adjustment of the composite evaluation scores has the potential of undermining
the independence and objectivity of the review process as required by DAO 203-26, Section
4.02h.1.c., and may give certain applications an unfair advantage.

NTIA officials stated that they changed the review practices for the fiscal year 1998 awards. The
applications were to be reviewed by outside reviewer(s) and an NTIA engineer. This combination
of reviewers would constitute a review panel. Neither the review scores nor the evaluations were
to be adjusted by the program staff. There would be a panel discussion among the reviewers at
which time the individual reviewers could decide to adjust their own scores or change evaluation
comments. Review panel scores would not be final until after the panel discussion. A program
staff member would be present during the panel discussion to record the comments of the
reviewers. Program staff could recommend to the PTFP program director that an application
either be funded or not funded regardless of a reviewer’s score; however, the program staff must
document the rationale for that recommendation based on the explanations contained in the
“Notice of Availability of Funds” published in the Federal Register. We believe these new
procedures, if followed, should ensure the independence and objectivity of the review process in
accordance with DAO 203-26.

C.     PTFP director ranked applications for selection

In accordance with NTIA’s Internal Operating Procedures, the fiscal year 1997 summary
evaluations and the adjusted composite scores were then used by the PTFP program director to
rank the applications for award selections. The program director’s ranking also took into account

                                                11
U. S. Department of Commerce                                           Audit Report ATL-10945-9-0001
Office of Inspector General                                                              March 1999


the “Selection Factors” presented on page 10. The program director recommended that 96
applications be funded, plus 17 if funds were available. The remaining102 applications were not
recommended for funding (see Table 1 on page 12). Of the 74 applications initially recommended
for funding by the review panels, 67 were among the 96 applications proposed for funding by the
program director; 4 were moved to the “if funds are available” category, including the
1 application that had been moved into that category as a result of the composite score adjustment
by program staff; and 3 were not recommended for funding. The program director adequately
documented his reasons for moving the applications from one category to another.

The following table summarizes the recommendations that resulted from the three processes
described above.

Table 1 - Ranking of Applications

                                                       If Funds Are                Not
 Review Process                Recommended               Available             Recommended
 Review Panels                       74                      90                       51
 Program Staff                       106                     60                       49
 Program Director                    96                      17                      102

IV.    PTFP Selection Decisions that Deviated from Program Director’s
       Recommendations Were Not Adequately Documented

NTIA officials need to improve the written justifications for award decisions that deviate from
recommendations made by the PTFP program director. 15 CFR Part 2301.18, “Selection
Process,” item (c), gives the NTIA Administrator, who is also the Assistant Secretary for
Communications and Information, final award selection authority. During fiscal year 1997, the
Assistant Secretary added three applications to the program director’s recommendation list.

In fiscal year 1997, the program director’s list of applications recommended for funding was
presented to OTIA’s Associate Administrator for review and approval. With the Associate
Administrator’s approval, the recommendation list was then presented to the Assistant Secretary
as the selecting official. Taking into consideration the program director’s recommendations and
the program purposes presented on page 10, the Assistant Secretary selected the applications to
be negotiated for possible grant awards.

The program director’s list included 96 grants in the amount of $14.3 million recommended for
funding and another 17 applications for about $2.5 million recommended for funding if funds
were available. The Assistant Secretary added three applications, totaling $395,000, to the list of
96 to be funded. One was from the list of 17 applications recommended by the program director
if funds were available. The other two were not recommended to be funded by the program

                                                12
U. S. Department of Commerce                                             Audit Report ATL-10945-9-0001
Office of Inspector General                                                                March 1999


director; however, they had been recommended for funding by a review panel if funds were
available. As a result of the Assistant Secretary’s action, a total of 99 applications were selected
to be negotiated for funding.

According to an NTIA internal memorandum in the program files, the Assistant Secretary decided
to add three additional applications to the program director’s list of recommended selections in
order to improve geographic distribution. The Assistant Secretary subsequently stated there were
also other selection factors involved, such as technology considerations. However, he could not
provide additional written documentation that either explained the other selection factors used or
how he applied those factors to each applicant. We found that the three additional applications
were the only ones chosen from each respective state and that each had received the highest score
for its respective state from the review panel. However, the file memorandum did not explain the
reason(s) for the particular geographic selections compared with eligible applicants from other
states.

Although it is within the Assistant Secretary’s authority to make the final selections, NTIA
officials should fully explain in writing any award decisions that deviate from recommendations
made by the program director in accordance with DAO 203-26, Section 4.05b. Deviations from
key competitive processes, although sometimes appropriate for managerial or legislative
requirements, may compromise the competition for program funds. Requiring selecting officials
to justify deviations from reviewer recommendations promotes managerial accountability for
award decisions.

The program staff then enters into negotiations with the selected applicants to resolve any
differences that might exist between the applicant’s original request and the amount NTIA
proposes to fund. During negotiations, some applications may be dropped from the list of
intended recipients due to a lack of Federal Communications Commission (FCC) licensing
authority, an applicant’s inability to make adequate assurances or certifications, or for other
reasons.

Of the 99 applications selected for negotiation, 3 failed to clear the FCC and were removed from
consideration. One application, initially recommended by the program director if funds were
available, was then added by the program director. This application was the next highest on the
“recommended if funds are available” list that also met the requirement of funds still available to
be awarded.

During this phase, there were also corrections of arithmetic errors in applications, plus some
minor adjustments resulting from discussions with applicants during negotiation of the award
amounts. After negotiations, the final selection list contained 97 applications to receive awards
totaling $14,157,734.




                                                 13
U. S. Department of Commerce                                            Audit Report ATL-10945-9-0001
Office of Inspector General                                                               March 1999


When negotiations were completed, the program director, with the approval of the Associate
Administrator, recommended applications for final selection by the Assistant Secretary. The
Assistant Secretary approved and selected for award the 97 applications as negotiated. The
97 awards included 66 of the 74 applications recommended by the review panels. The remaining
8 applications were deferred to fiscal year 1998.

The PTFP grants were available to the 50 states and all U.S. territories. The 97 grants selected
were awarded to organizations in 39 states, the District of Columbia, and American Samoa.
There were 11 states and 4 territories that did not receive an award. Of these, six states and
three territories had no organizations that submitted applications.

Organizations in the remaining five states and Puerto Rico submitted applications but did not
receive an award. In only one of those jurisdictions was an application submitted that was
recommended for funding by a review panel; however, that application requested an amount that
would have exceeded the remaining available funds. An organization representing only one other
state submitted an application that a review panel rated higher than the lowest rated of the three
applications added by the Assistant Secretary.

V. Conclusions

PTFP has a set of criteria that are merit-based and appropriate for the selection of applications for
funding. Likewise, the solicitation, review, and selection process established by PTFP and NTIA
is designed to promote selection decisions that are based on those published criteria and to ensure
that all applications are evaluated objectively and fairly. However, review practices sometimes
deviated from procedures and selection procedures need improvement.

VI. NTIA Response

NTIA concurred with our findings and recommendations. NTIA stated that it has already
implemented the recommendations, starting with the fiscal year 1998 grant competition. NTIA
also requested editorial changes based on the 1998 process improvements it implemented. In
addition, NTIA requested that certain predecisional information be deleted from the report. We
have included a copy of the response, excluding attachments, as Appendix II.

VII. OIG Comments

We commend NTIA for implementation of the draft report’s recommendations. We did not
modify the final report based on the fiscal year 1998 changes by the agency because this report
covers the fiscal year 1997 awards process. However, we have deleted certain predecisional
information from the report that we believe did not detract from our analysis of the award process
and the related recommendations. In addition, we made other editorial changes we considered
appropriate.



                                                 14
U. S. Department of Commerce                                         Audit Report ATL-10945-9-0001
Office of Inspector General                                                            March 1999


VIII. Recommendations

We recommend that the Assistant Secretary for Communications and Information:

l      Direct the PTFP staff to ensure that independent reviewers’ scores are not adjusted by
       program staff during the review process.

l      Require adequate written documentation which sets forth the basis for making awards that
       deviate from the program director’s recommendations.




                                               15
U. S. Department of Commerce                                                               Audit Report ATL-10945-9-0001
Office of Inspector General                                                                                  March 1999


                                                                                                           Appendix I
                                                                                                           Page 1 of 3

                    NTIA FISCAL YEAR 1997 PROCEDURES FOR
               SOLICITATION, REVIEW, AND SELECTION OF AWARDS




                                         NTIA Publishes Solicitation Notice
                                          -- in Federal Register
                                          -- on NTIA Internet Web Site
                                          -- to Program Mailing List.




                                                      Application.




                                                        Does
                                                    applicant meet            No   Application rejected
                                             (1)applicant and (2) financial
                                                    qualifications?



                                                      Yes


                                          Application Evaluated by panel:
                                           -- Outside Reviewers
                                           -- NTIA Engineer
                                           -- PTFP Program Staff Member




                                                     To 1 page 2




                  Solicitation Process            Review Process                   Selection Process
U. S. Department of Commerce                                                                                  Audit Report ATL-10945-9-0001
Office of Inspector General                                                                                                     March 1999


                                                                                                                                      Appendix I
                                                                                                                                      Page 2 of 3

                                                                    From 1 page
                                                                         1



   Outside Reviewers Use Review Criteria:
    (3) Project Objectives                                                                              Program Staff Member Uses Review Criteria:
    (4) Urgency of Project                                                                               (3) Project Objectives
    (5) (i) Technical or (ii) Planning                                                                   (4) Urgency of Project
   Qualifications                                                                                        (5) (i) Technical or (ii) Planning
                                                        Engineer Uses Review Criteria:
    (6) Special Considerations                                                                          Qualifications
                                                         (4) Urgency of Project
                                                                                                         (6) Special Considerations
                                                         (5) (i) Technical Qualifications
   If more than one outsider reviewer,
   average scores are calculated.




                                                        Program staff member:
                                                         -- calculates composite evaluation
                                                            score
                                                         -- prepares summary evaluation
                                                         -- submits recommendation for
                                                            funding to Program Director




                                                        Program Director ranks applications

                                                          -- Fund
                                                          -- Fund if funds available
                                                          -- Not recommended for funding

                                                        and presents recommendations to
                                                        Associate Administrator based on
                                                        Selection Criteria:

                                                          (1) Program Officer Evaluations
                                                          (2) Type of Project/Priorities
                                                          (3) Broadcast or Nonbroadcast
                                                          (4) Any current NTIA Grant
                                                          (5) Geographic Distributions
                                                          (6) Availability of Funds



                                                              Associate Administrator
                                                              approves recommendations
                                                              and presents list to
                                                              Assistant Secretary



                                            Assistant Secretary selects applications that the program staff
                                            will negotiate with to arrive at final awards

                                            Considers whether recommendations satisfy program purposes:
                                             (a) extend delivery of public telecommunication services
                                             (c) strengthen capability of existing public television and
                                                  radio stations



                                                                         To 2 page
                                                                             3
U. S. Department of Commerce                                                     Audit Report ATL-10945-9-0001
Office of Inspector General                                                                        March 1999


                                                                                                 Appendix I
                                                                                                 Page 3 of 3




                                       From 2 page
                                            2




                               Program Staff Negotiates
                               with Applicants




                                           FCC
                                   Licensing Authority?        No

                                      Assurances or                 Not Funded
                                      certifications?



                                        Yes


                               Program Director prepares
                               recommendation list for final
                               awards




                               Recommendation list sent to
                               Associate Administrator for
                               approval




                               Assistant Secretary makes
                                      final selection




                                          Sent to
                                Department's OEAM and
                                Office of General Counsel
                                       for approval
